HHS/OIG, Audit -""Review of Outpatient Cardiac Rehabilitation Services at Shady Grove Adventist Hospital, Rockville, Maryland,"(A-03-03-00004)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services at Shady Grove Adventist Hospital, Rockville, Maryland," (A-03-03-00004)
October 9, 2003
Complete
Text of Report is available in PDF format (364 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed Shady Grove Adventist
Hospital (Shady Grove) for outpatient cardiac rehabilitation services.  Even though physician supervision is assumed
to be met in an outpatient hospital department, Shady Grove contracted with a physician to supervise the services provided
by its cardiac rehabilitation program.  The physicians responsibilities included approval of cardiac rehabilitation
treatment plans and review of patients medical records.  However, our review disclosed that the physician generally
was not in the exercise area during regularly scheduled exercise sessions, and he generally did not see the patients.  In
addition, from our specific claims review for a sample of 30 beneficiaries with claims for outpatient cardiac rehabilitation
services during calendar year 2001, we determined that Shady Grove received Medicare payments of $9,127 for services provided
to beneficiaries where medical documentation may not have supported Medicare covered diagnoses and for services not otherwise
allowable.